<html>
<title> - OBAMACARE'S EFFECTS ON SMALL BUSINESSES</title>
<body><pre>[Senate Hearing 114-333]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-333

                OBAMACARE'S EFFECTS ON SMALL BUSINESSES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 15, 2015

                               __________

    Printed for the Committee on Small Business and Entrepreneurship


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
         
         
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-433 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
         
         
         











         
         
         
         
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED FOURTEENTH CONGRESS

                              ----------                              
                   DAVID VITTER, Louisiana, Chairman
              BENJAMIN L. CARDIN, Maryland, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 JEANNE SHAHEEN, New Hampshire
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
KELLY AYOTTE, New Hampshire          GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming
                  Zak Baig, Republican Staff Director
                 Ann Jacobs, Democratic Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Vitter, Hon. David, Chairman, and a U.S. Senator from Louisiana..     1

                               Witnesses

Statement of Hedy Hebert, Partner, Benefit Consulting Services, 
  Bossier City, LA...............................................     6
Statement of Debbie Martin, President, North Shreveport Business 
  Association, Shreveport, LA....................................    10
Statement of David Scruggs, COO, Piggly Wiggly and Save-A-Lot 
  Grocery Stores, Springhill, LA.................................    12
Statement of Brenda Little, Healthcare Administrator, Jean 
  Simpson Personnel Services, Inc., Shreveport, LA...............    14

                          Alphabetical Listing

Hebert, Hedy
    Testimony....................................................     6
    Prepared statement...........................................     8
Little, Brenda
    Testimony....................................................    14
    Prepared statement...........................................    16
Martin, Debbie
    Testimony....................................................    10
    Prepared statement...........................................    11
Scruggs, David
    Testimony....................................................    12
    Prepared statement...........................................    13
Vitter, Hon. David
    Opening statement............................................     1
    Prepared statement...........................................     3
 
                OBAMACARE'S EFFECTS ON SMALL BUSINESSES

                              ----------                              


                       THURSDAY, JANUARY 15, 2015

                   Bossier Parish Community
                                   College Theater,
                                                  Bossier City, LA.
    The Committee met, pursuant to notice, at 1:30 p.m., at 
Bossier Parish Community College Theater, 6220 East Texas St., 
Hon. David Vitter, Chairman of the Committee, presiding.
    Present: Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, CHAIRMAN, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chairman Vitter. As I promised, let's now move on to our 
panel. I'm really, really honored that these four 
representatives of small businesses and consultants to small 
businesses in Northwest Louisiana could join us. And they're 
going to provide insight into the small business experience 
under ObamaCare. Let me also mention, before I introduce them, 
that I had also invited as chair of the small business 
committee, two folks from the Federal Government who are 
directly involved in Washington's exemption from ObamaCare to 
talk about that. They declined. They refused to come and 
testify. We're going to follow up in the future including with 
subpoenas if we need to. But I did invite them as witnesses as 
well. They refused.
    So let me introduce our small business panel. I'll 
introduce all four and then they will present their testimony 
and observation in order. First Hedy Hebert. Hedy is a partner 
and consultant with Benefit Consultant Services in Bossier 
City. She works with large and small employer groups who 
provide employee benefits and coverage in such areas as group 
health life, dental, disability and long-term insurance.
    Next will be Debbie Martin. Debbie is the president of the 
North Shreveport Business Association. Of course, the mission 
of that important association is to educate, inform and provide 
beneficial services to members in those businesses who 
represent, promote and support the business community of North 
Shreveport. That organization supports educational needs in 
area and neighborhood schools, annual activities supporting 
police, fire and sheriff's departments, legislative advocacy 
and much more.
    We also have David Scruggs with us. David is controller of 
Kenyan Companies; and as controller David is responsible for 
the financial reporting, financing needs, financial forecasting 
and compliance of all Kenyan Companies. That's probably better 
known to you as the company that operates Piggly Wiggly and 
Save-A-Lot Grocery Stores in several states, including this 
area in Louisiana.
    And finally Brenda Little. Brenda has had various job 
duties and responsibilities at Jean Simpson Personnel Service 
for 19 years, working with the largest staffing agency in 
Shreveport-Bossier. She's counseled employees on their careers, 
recruited candidates for career opportunities and provided 
customer service to over 2,000 customers. In addition to this, 
Brenda's duties have been expanded to include Healthcare 
administrator with the task of devising a plan to track and 
report ObamaCare information and mandated reporting. And I know 
that's a big, big new burden and responsibility for Brenda.
    So, again, thanks to all of you for being here, and we'll 
go in the order I just introduced you, starting with Hedy.
    [The prepared statement of Chairman Vitter follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
     
STATEMENT OF HEDY HEBERT, PARTNER, BENEFIT CONSULTING SERVICES, 
                        BOSSIER CITY, LA

    Ms. Hebert. Good afternoon. Senator Vitter, thank you for 
the opportunity to be with you this afternoon and other 
distinguished business owner and community leaders as we 
discuss the many struggles small businesses face in navigating 
the healthcare law. Because Congress is exempted from 
healthcare reform law, it is difficult for many of their 
members to fully understand the daily struggles our business 
owners now face. Again, my name is Hedy Hebert, Partner with 
Benefit Consulting Services right here in Bossier City. Our 
company provides employee benefit consultation services for 
many local businesses, particularly for group health insurance. 
For many years healthcare costs have been increasing and we 
have worked hard to provide sensible solutions for our clients.
    As a past president of the Bossier Chamber of Commerce, I 
have listened to the struggles that many businesses have faced 
for years as they have tried to find a way to offer a 
competitive benefit package to their employees. Our company has 
also worked with the Greater Shreveport Chamber of Commerce, 
and many of their members have expressed the same concerns. The 
Affordable Care Act did not address the main problem most 
businesses previously faced, and that was ``cost.'' Many of 
these businesses were in favor of changes that would eliminate 
pre-existing conditions, and they also were in favor of having 
the opportunity to purchase insurance at lower rates with more 
choices as some of the larger employers were able to do.
    When the definition of full-time hours was changed from 40 
to 30, this increased the burden to have to offer insurance to 
even more employees, which would increase the healthcare costs 
again. There are many unintended consequences in the Affordable 
Care Act. One of them is that now many employers are changing 
their employees' hours to 29 to avoid having to offer benefits. 
One of my physician office clients told me they would not grow, 
and definitely would never have 50 employees.
    There are also many negative effects of the Affordable Care 
Act:
        1. Rising healthcare costs.
        2. Limitations on the employer's expansion 
        opportunities.
        3. Employer mandates.
        4. IRS reporting requirements.
        5. Higher deductible plans make it difficult for 
        employees to be able to use the coverage.
        6. Increased Department of Labor audits.
        7. Moving from grandfathered plans to non-grandfathered 
        plans changes the rated mechanism to age rated instead 
        of composite rates. This increases the rates for the 
        younger employees. It also significantly impacts the 
        family rate by charging for each child individually 
        now.
        8. Tax increases.
        9. Increased regulation.
        10. Tax credits are not working for most employers. In 
        order to receive credits, they must be in the SHOP 
        Exchange, and at present, there aren't many options as 
        they vary from State to State.
    When the employer mandate for large employers was postponed 
by the Federal Government, many employees that had never been 
offered coverage signed up for the Market Place in the 
Government Exchange. When these same employers complied with 
the law and offered coverage in January of this year, those 
employees receiving this subsidy were no longer eligible for 
it--unintended consequences. There is a lot of confusion, 
however, because many individuals have been told by 
Healthcare.gov that they are still eligible to receive the 
subsidy. Even though there is an individual mandate to purchase 
insurance, many people still plan to take their chances with 
the penalty, because they know they can still access the 
emergency room for treatment.
    Another problem that employers are also facing is the delay 
to get their groups set up with the insurance carriers. The 
back-log is tremendous because of all the mandates that the 
insurance carriers also experience.
    If the members of Congress were not exempt from the 
Affordable Care Act, and if any of them owned a small company, 
they would have a better appreciation of what our businesses 
face on a daily basis. They would also have a better 
understanding as to why there is so much confusion in our 
country right now. A young fireman's family rate for insurance 
increased from $1,300 per month to $1,679. The only way to 
lower his rate is to continually decrease his benefits.
    Thank you again for the opportunity to share some of the 
problems our clients are experiencing. We appreciate your 
interest in helping these employers and will be glad to help at 
any time.
    [Applause].
    [The prepared statement of Ms. Hebert follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Vitter. Thank you very much.
    Now Debbie Martin.

    STATEMENT OF DEBBIE MARTIN, PRESIDENT, NORTH SHREVEPORT 
              BUSINESS ASSOCIATION, SHREVEPORT, LA

    Ms. Martin. Thank you again, Senator Vitter, for the 
invitation.
    Chairman Vitter. Sure.
    Ms. Martin. I've had numerous opportunities to visit with 
business owners regarding the impact and negative consequences 
of ObamaCare to their businesses. There are over 650 business 
in the North Shreveport area. In an effort to assist our 
members to better understand ObamaCare, our association has 
provided guest speakers familiar with the law and the impact it 
will have on the business community. What I have observed after 
each speaker concluded their presentation is that our members 
were so confused, they were unable to ask question.
    Many businesses have told me they had to eliminate 
expansion plans, reduce the hours of full-time employees and 
eliminate annual bonuses in order to remain competitive and 
profitable. The most painful scenario occurs when employers are 
making decisions that affect employees that have been with them 
for many, many years.
    I spoke with a businessman recently who informed me his 
Blue Cross Blue Shield premium one year ago was $280 a month 
and his deductible was $1,000. His new coverage to comply with 
ObamaCare would cost him more than $600 per month and the 
deductible went up to $5,000. This gentleman is a 60-year-old 
male that now has to carry maternity benefits and pediatric 
dentistry. He's self-employed and simply cannot afford it. He 
opted to pay the fine.
    Another large employer shared that they have spent endless 
hours cutting employee hours in order to stay below the 30-hour 
threshold. Most of these employees took a second job to make 
ends meet, and now they're having their hours reduced. These 
employees did not ask for benefits, but a few hours just to pay 
their bills.
    One business stated, in order to survive, they've 
eliminated all full-time employees through attrition and will 
not hire any additional full-time employees. Another business 
had said, in order to keep up with the information required to 
meet the guidelines, it will require 40 hours per week to 
complete.
    And lastly, I have experienced, after speaking with several 
small business owners, they're afraid to speak publicly in fear 
that their business will be negatively targeted.
    Thank you.
    [Applause].
    [The prepared statement of Ms. Martin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Vitter. Thank you, Debbie, for your testimony and 
for being here.
    Now, David Scruggs.

 STATEMENT OF DAVID SCRUGGS, COO, PIGGLY WIGGLY AND SAVE-A-LOT 
                 GROCERY STORES, SPRINGHILL, LA

    Mr. Scruggs. Thank you, Senator. And I appreciate that last 
comment. When you're dealing with retail, that's exactly what 
you're worried about.
    Our company, Kenyan Companies, we own and operate 17 
grocery stores. We have 4 Piggly Wigglys and 13 Save-A-Lots. 
We're in four states and we have over 400 employees. The one 
thing at Kenyan Companies, we've always prided ourselves on our 
employee benefit program and what we offered our employees. And 
as an added benefit to them, our company has historically paid 
66 percent of their healthcare premiums. Now we have the 
Affordable Care Act, ObamaCare, telling us that we have to 
offer health benefits to twice the number of employees and that 
we have to cover even more of the cost, a cost that is not 
shared by the Federal Government, the health insurance 
companies or that we will pass on to employees. This is a 
Government mandated cost increase that is to be paid directly 
by our company.
    In 2014 our Group Health Plan covered 63 employees, their 
spouses and their children. Under this plan, our company paid 
66 percent of the cost, or $449,000.
    For 2015, after going through all the rules applying this 
9.5% affordability calculation to our lowest eligible 30-hour 
employee, it was calculated that we could only charge our 
employees $90 a month for healthcare or for health insurance, 
and now we must include every employee above 30 hours and to 
our eligible group. Therefore, for 2015, our Group Health Plan 
will now cover 151 employees, their spouses and their children. 
The increase in the number of employees covered is a direct 
result of ObamaCare, because they require that each individual 
have health insurance or face penalties. What this has done to 
our company is it has moved our expense numbers from 66% to 
81.5%, the premiums, for each employee. Our new projected cost 
for this year is going to be $899,000. That's an increase 
through our company of $450,000. This is more than 30% of what 
we were able to put on our bottom line last year. Since the 
Administration has assumed the authority to make decisions on 
how we are to spend our money, I think they ought to provide us 
with the solution to minimize the effect of it. Now our company 
is going to be forced to make many difficult decisions this 
next year on how to cover this tremendously increased cost. And 
unfortunately, one of them will be changes in our hiring 
practices. We will no longer hire someone coming in right off 
the bat at full time. All of our new hires unfortunately will 
come in at 25 hours a week, then we will pick the most 
potential employee and move them to 35 hours a week. We will 
avoid the 30-hour threshold. Thank you.
    [Applause].
    [The prepared statement of Mr. Scruggs follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    Chairman Vitter. Thank you, Mr. Scruggs.
    Then finally Brenda Little. Brenda.

  STATEMENT OF BRENDA LITTLE, HEALTHCARE ADMINISTRATOR, JEAN 
        SIMPSON PERSONNEL SERVICES, INC., SHREVEPORT, LA

    Ms. Little. Thank you for letting me be here as well.
    Chairman Vitter. Sure.
    Ms. Little. The reason Affordable Care Act has impacted our 
business greatly in numerous ways, as well as our customers 
that we provide staffing for in a negative manner by the 
numerous extra costs it forces our company to bear along with 
our customers. Keeping up with all the information that is ever 
changing and evolving as the legislation concerning all of the 
ObamaCare regulations is revealed has required us to create a 
40-plus hour a week position to do so. There are so many 
variables with the legislation, it makes it extremely difficult 
and confusing to keep up with and to lay out a doable plan for 
tracking. Also, to have in place some sort of checks and 
balances to prevent employees form slipping through the cracks 
where there are gray areas. It is all confusing for us, which 
makes it more difficult to explain to our employees, which are 
primarily made up of the blue collar working class that mostly 
barely have a high school education. In the staffing business, 
an employee's status can be ever changing, so keeping up with 
whether an employee is a variable, non-variable, part-time or a 
seasonable employee when it can change repeatedly throughout 
their duration with us as an employee is a huge challenge and 
takes constant monitoring. You have measurement periods to 
track, administrative periods, stability periods, and also 
breaks in service that all have to be monitored.
    One of the most confusing things that is a huge part of 
this legislation is calculating what is considered your 
``FTE's'', or your (Full Time Equivalent) employees. Most 
businesses assume that they are safe because they have part-
time workers. But in all actuality, if the company has enough 
part-time workers, they may be vulnerable to a fine due to the 
way that the employer's FTE's are actually figured. They are 
figured on hours worked, not necessarily the number of 
employees you employ. The calculations can be overwhelming.
    In the staffing business, we do not always know if a person 
is going to be working 30-plus hours per week. Employees, as a 
part of their continuing employment, can reject assignments, 
typically work 40 hours more per week on assignments of less 
than 13 weeks, and typically have periods where no assignments 
are available. We have anywhere from 600 to 800 employees on 
our payroll on a weekly basis, not always the same employees. 
Someone has to track all of this. Very little easily understood 
information and/or guidelines have been provided along with 
this legislation to employers. We have to figure out our own 
tracking methods and hope that we are able to provide all the 
information that is to be required when it comes time to report 
all of this, which will be a lot more hours that someone within 
our company will have to spend to compile. We are offering a 
wellness plan, which is what gets us over the ``A'' tax. This 
only leaves us vulnerable to the ``B'' tax if someone actually 
qualifies and receives a subsidy. We have been forced to learn, 
know, and understand healthcare insurance. We also have to 
allow time to explain to our employees the insurance offered to 
them, when their main concern is primarily to find employment. 
The wellness plan that we offer costs $65.28 per month for an 
employee only. So a person earning $8 an hour will have to work 
a little over 8 hours to pay for this before they are able to 
earn any money to provide for their self. This is a total of 
$783.36 per year, which is a much greater amount than what 
someone's wellness visit should be. When, if they elect to just 
pay the fine, based on that income, would be $124.80 if they 
are the only person earning income in that household.
    This legislation does not help the average person who did 
not have healthcare coverage before. It just puts a greater 
burden on them.
    [Applause].
    [The prepared statement of Ms. Little follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  
  
  
    
    Chairman Vitter. Thank you. Thanks to all of you again for 
your testimony and for being here. You offered a real direct 
small business perspective, so I really appreciate that. I 
wanted to explore a few important issues that most, if not all, 
of you touched on, but explore it a little more. One is cost. I 
think broad brush, the biggest problem we are seeing as a 
result of ObamaCare is the promise was it's going to drive 
costs down. And basically it's driving costs up, even more than 
they were already going. So it hadn't solved that problem. It 
made it worse in my opinion. It's not just my opinion. It's a 
lot of studies that bear that out. One study, a September 2014 
study by the American Action Forum, reported that Louisiana 
businesses experienced an average premium increase of 9% as a 
result of ObamaCare requirements. I'm just curious if each of 
you could react, some of you mentioned figures, what your 
experience is compared to, say, 9% average increase.
    Mr. Scruggs. According to my numbers, mine is 50 percent. 
It doubled. It's a 100% increase. We went from 449,000 to 
899,000. I think the most difficult thing in watching is, you 
know, it's great that we cover more employees. We're glad to 
see more employees have health insurance, but nobody is 
controlling the cost of the healthcare. No one is controlling 
or mandating limitations from like a United Healthcare or a 
Blue Cross on what the premiums could be, so having the mandate 
of having to offer the health insurance is one thing, but 
giving somebody an open book on the other hand and not 
controlling them at all, that's what makes it very unfair to 
small businesses.
    Chairman Vitter. Anybody else?
    Ms. Hebert. I would just like to add, on all of the 
renewals that we've seen under small businesses, if they were 
with non-profit carriers, seemed to be pretty good renewals. 
When there was some of the for-profit carriers, now you have 
rebates. Y'all probably hear about the rebate checks that come 
back and if you don't spend them for the healthcare 
[inaudible]. So now we have a situation where sometimes you get 
the renewal in and, you know, I'm going to ask every time to 
have a zero renewal because I do that for my clients, so I 
think I should do that. But if they say, well, what do you 
think they will take? I never heard that before. I never heard 
that now we negotiate our rates because they're all worried 
about what their bottom line is going to be. So this is 
affecting the carriers. The premium taxes that we all see, 
they're passing that on to us and they're more taxes coming in 
every year. The Cadillac tax, I know y'all are working with 
that in the future, but they just don't stop.
    Chairman Vitter. I agree. Anyone else?
    Mr. Scruggs. Just the straight rates from the health 
insurance companies. You know, last year we did a short year 
renewal. Our planning year usually ended in March and then we 
would have open enrollment, but what we did is we only renewed 
our healthcare plan until December 31st of this year. We waited 
to see if there were going to be any changes. So when we 
renewed for our short year renewal, our premiums came back at 
an 8% increase. We had this plan for 9 months. When we were 
renewing in December, they wanted another 12% increase. Why? 
The evidence wasn't even there. Their expenses compared to the 
premium that we were charged over those 9 months, they pocketed 
about 63 percent compared to what they actually had to pay out 
for our group. So there is just no control. They've got to 
control the healthcare providers.
    Chairman Vitter. Anybody else? Okay. Another issue that at 
least some of you touched on and certainly I'm interested in is 
what is full time, 30-hour week, 40-hour week. Again, for 
everybody's benefit, there's a rule in ObamaCare that basically 
for some of these calculations counts full-time workers as 
anything above 30 hours. So, as a result, to not have that 
person counted in certain ways under the calculation, a lot of 
employers have pushed people out of your 40 hours to 29 hours 
or less--25 hours, the case of you all. If you could elaborate 
a little bit about what you've seen directly in terms of that 
impact?
    Ms. Martin. In my notes I referenced a company with over 
1,000 employees, and they have spent the last year, probably 
longer than a year, going through each and every employee 
record and cutting those hours back. And these are people that 
are desperate for work. And so that's been one of the hardest 
things for these companies to do. There will be no full-time 
employees.
    Chairman Vitter. So you're saying in that case, they did 
that for all thousand?
    Ms. Martin. They're doing it. As many as they can do, 
they're doing. Other companies have called and said our bonuses 
are sitting there. We don't know what to do. There will be no 
weekend, overtime, no other work because we just don't know 
what recordkeeping is going to have to be required and we don't 
know when we're going to have to go to [inaudible] supposed to 
do. So the uncertainty makes it not able to advance, yet, they 
are pulling from the employee that's suffering because of this.
    Chairman Vitter. So, obviously, for the individual worker, 
everything else is the same. They're losing a quarter of their 
paycheck.
    Ms. Martin. Or their job. And we have a housekeeper that 
works in our office. She has two jobs. She's worked at a local 
establishment for 15 years. A valued employee, probably never 
missed a day, works a second janitorial job with us. Those 
hours were cut, so she has to find a third job now just to keep 
up because she doesn't want to get on welfare. She refuses to 
do that. She's able to work, but she wants to provide for her 
children. So that's so unfair for someone that's worked 
somewhere that many years and she knows that it's just not 
right that she has no choice.
    Mr. Scruggs. As an employer, that's one of the things 
that's really difficult. Meaning typically if we hire someone, 
they're going to work 30, 32 hours a week. And to have to make 
that decision to back down to 25 hours simply because somebody 
mandated the cost increase for you, you know, it doesn't seem 
fair, but at the same time it's not fair to the guests to 
suffer the increases in our bottom line expenses, you know. And 
that's painful to watch these people. They are going to work 
at/or slightly above minimum wage, and what you can only give 
that person now, you can give them 25 hours, they are going to 
have to get a second job or maybe get a third job to make ends 
meet.
    Chairman Vitter. Anybody else? Let me ask in a third area. 
As you all know, in 2014 a temporary small business tax credit 
was made available for 2 years. So that's small businesses that 
provided workers with qualified health coverage under ObamaCare 
and had 10 or fewer workers would get back up. And for firms 
with 11 to 25 employees they'd get a lower credit. Firms with 
more than 25 employees get no credit. Only firms covering 50% 
or more insurance costs are eligible and all of their coverage 
is in the credit. It has to be through the SHOP Exchange. At 
least one of you mentioned that, and basically the difficulty 
and the cumbersomeness of taking advantage of it. Do any of 
y'all have direct experience with businesses using that or not 
using it based upon how that works and how cumbersome or not it 
is?
    Ms. Hebert. I mentioned it in my speech. I know that 
companies early on when we found out about the small business 
tax credits, our companies received information from their 
carriers that told them that they should talk to their 
accountants, talk to their CPA's just to see if they're 
eligible for it. Most of the ones that we talked to, it was 
very cumbersome what they had to go through for the money they 
were going to save. And I don't know of any that, you know, did 
save money. The other thing is the way it was designed then, 
you know, the rules have changed now that you now have to be a 
part of the SHOP Exchange. When the tax credits first came out, 
they could be eligible for it, but now with the SHOP not being 
fully operated and having choices, which I think the reason for 
that is so that small companies can have that opportunity to 
have different carriers like the larger companies do, so now 
they have to still make the same participation requirements. 
The rules are basically the same as regular insurance. So it's 
just not been something--I think more could be done on it. But 
so far it's not been working for us.
    Chairman Vitter. So broad brush, why aren't more choices 
available under the SHOP Exchange?
    Ms. Hebert. Right.
    Chairman Vitter. I'm saying, why aren't there more choices 
available?
    Ms. Hebert. Well, personally I think some of the carriers, 
it appeared in the beginning, kind of waited and didn't go out 
on the Exchange, it didn't offer different things because I 
think when they--they knew they had to have everybody come in, 
so there's a risk out there [inaudible] in the beginning. And 
it may be more choices in another year or so, but right now 
it's not helping the small employer and those increases still 
keep coming. So that may be. I don't know what the reason is.
    Chairman Vitter. Anybody else? And then another area, you 
know, a big line in ObamaCare is fewer than 50 employees vs. 
over that. So, basically over 50, you have the business 
mandate. Under 50, you don't. So it's a huge difference. 
Obviously if you are a small business at 45 employees, that 
gives you an enormous pause about growing in a way that you 
would otherwise want to do. Any of y'all have direct experience 
with businesses in that predicament?
    Ms. Hebert. Meaning that they aren't going to expand?
    Chairman Vitter. Well, whatever the experience is, do you 
know of businesses of that size, and how are they reacting to 
that line being?
    Ms. Little. We had some companies that their feedback has 
been, when they get at that threshold that those people will be 
let go. In other words, not go over those hours or they are 
going to make them go over that hump.
    Chairman Vitter. So clearly, what I would have expected is 
true? That's a big barrier of businesses growing beyond that?
    Ms. Little. Exactly.
    Chairman Vitter. A lot of businesses would otherwise expand 
to grow beyond that. This is a big inhibiting factor?
    Ms. Little. Huge.
    Ms. Hebert. There's also control rules too where there's 
people that own different companies and the rules in there say, 
if you are part of the [inaudible] group and you may have 10 in 
this company and 35%----
    Chairman Vitter. Put it all together.
    Ms. Little. Put it all together.
    Mr. Scruggs. [Inaudible.]
    Chairman Vitter. So technically you have four companies, 
but under the rules you have to count it all as one?
    Mr. Scruggs. One company.
    Chairman Vitter. Thank you all very, very much for coming 
out. [Applause]. Before you leave, I want to thank our panel 
again, the small business experts. Let's give them a round of 
applause. [Applause]. Two more things: If I wasn't able to get 
to you, your comment or question, and if you haven't already, 
please give us one of those little forms with your name and 
contact information. We will follow up. That's number one. 
Number two, please keep the handout we passed out today 
because, again, that blue column on the left-hand side of the 
page has all my contact information, including our Web site, 
which has easy e-mail access, including our Northwest Louisiana 
office. So please use that to keep in contact with me and my 
staff on an ongoing basis. And finally, I'm going to be doing 
plenty more town halls, small business committee field 
hearings, etc. I always do those around the State on a regular 
basis. That will certainly continue. And we also do telephone 
town halls. Many of you have participated in those.
    Thank you very much. Thank you for coming today.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]
  

                                  [all]
                                  
                                  
                                  
</pre></body></html>
